APPENDIX A

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Richard Balter,
Plaintiff,

)
)
)
)
)
)
)

v.
United States of America,
Defendant.

l:17cvl!88 (AJT/JFA)

MEMORANDUM OPINION
Richard Balter, a federal inmate proceeding pro se, has filed a complaint pursuant to the
Federal Torts Claim Act (“FTCA”), 28 U.S.C. §§ 2671 et sea.1 Defendant has filed a Motion for
Partial Dismissal and Partial Summary Judgment, along with a memorandum of law and exhibits
in support thereof. Diet. Nos. 36-38. Plaintiff has filed an opposition, as well as an affidavit and
Statement of Disputed Facts. Dkt. Nos. 42-44. Defendant filed a reply. Dkt. No. 45. This
matter is now ripe for adjudication. For the reasons stated below, defendant’s motion will be
granted, and this matter will be dismissed.
I. Background
Plaintiff is an inmate incarcerated at FCC Petersburg. Amend. Comp. ^ 5. On March 24,
2015, plaintiff fell in the shower because another inmate left soap on the shower floor and
plaintiff, who is blind, did not know the soap was there. Id. K 8, Ex. 1. Asa result, plaintiff
twisted his ankle. Id. H 8. In June and July of 2015, he went to see the medical staff every day
regarding severe pain in his lower back and right leg, as well as numbness in his right foot. Id.

i

Although plaintiffs complaint may be liberally construed to raise other claims, he has
repeatedly stated that he is only raising claims pursuant to the FTCA. See, e.g.. Dkt. No. 4; Pl.’s
Opp. at 7-8.

9. Plaintiff was evaluated by Physician Assistant Hall on July 20 and 23,2015, and prescribed
plaintiff 800 milligrams of Ibuprofen three times a day for 180 days. Id. f 11. Exs. 2-3.
A radiology report of a lumbar spine and pelvic x-ray dated July 27,2015, states that the
findings are “negative except for moderate degenerative disc disease” and “mild osteoarthritis of
. the hips.” Id. Tf 14, Exs. 6-7. That same day, plaintiff was evaluated by Physician Assistant Hall.
Id. at Ex. 8. On July 28,2015, Dr. DiCocco prescribed acetaminophen with codeine, to be taken
twice a day, and gabapentin, also to be taken two times a day, each for fourteen days. Id. Tf 13.
During a period of four to six weeks, plaintiff was prescribed “Ibuprofen 700 mg., Tylenol
Acetaminophen/Codine [sic] 300/30 mg., Prednisone 5 mg., Percocet, Oxoxodone [sic] 5 mg.,
Codine [sic], Gabapentin 600 mg., Indomethocin 50 mg., Morphine Sulfate 20 mg., Ketorolac
Tromethamine Injection 30 mg., Naproxen 250 mg., [and] Baclofen 10 mg.” Id. ^ 60, Exs. 9-10.
On August 5,2015, Dr. DiCocco noted that plaintiffs pain and numbness “raise[] the
question of spinal cord/lumbosacral compromise” and ordered that plaintiff be scheduled for a
lumbar and sacral MRI on “an urgent basis if not emergent basis.” Id. ^ 14, Ex. 4. This MRI
was ordered to look for evidence of “HNP or neoplastic process or trauma.” Id. If 14. The MRI
was never scheduled. Id. 1f 19. On August 6,2015, plaintiffs morphine was increased to 40
milligrams daily. Id. “A few days prior to August 9,2015,” plaintiff was in severe pain,
however, an unnamed lieutenant “made a diagnosis causing” plaintiff to not be seen by the
medical staff. Id Iff 55-57.
On August 9, 2015, plaintiff was in severe pain, vomiting, incontinent, confused, and
unresponsive to verbal stimuli. Id. fflf 63,67. The medical staff ordered that plaintiff be taken to
the John Randolph Medical Center because of a suspected drug overdose. Id.

58, 68, 70, Ex.

19.
While plaintiff was at the hospital, an August 10, 2015 MRI of his lower spine revealed
the following:
2

•

L2-3 level: minor bulge and mild facet arthrosis without central canal comprise or
neural foraminal narrowing.

•

L3-4 level: minor bulge and mild facet arthrosis and mild to moderate central
canal stenosis.

•

L4-5 level: right paracentral protrusion with large disc protrusion with inferior
migration that results in severe central canal stenosis with moderate bilateral
neural foraminal narrowing.

• L5-S1 level: minor bulge and mild facet arthrosis without significant central canal
compromise or neural foraminal narrowing.
Id. at Ex. 11. The findings were that plaintiff had a herniated disc and compression fracture of
the LS spine. Id. ^ 30, Ex. 13. Finally, plaintiff was found to be in acute renal failure. Id f 29,
Ex. 12.
On August 14,2015, plaintiff underwent spinal surgery. Id. H 31, Ex. 14. A few days
after the surgery, plaintiff informed the surgeon that his right leg and foot were numb. Id. U 42.
On September 28, 2015, Dr. Winbush noted that plaintiff had changes to the vertebroplasty at L5
and degenerative changes of the spine. Id. 32, Ex. 15. Several months after the surgery,
plaintiff informed Dr. Prakash that his right leg and foot were numb, and an MRI was approved
on December 3,2015, however, the MRI did not occur until thirteen months later. Id. ^ 43-45,
Ex. 16. The MRI revealed a pinched nerve; however, plaintiff has been told that nothing can be
done until he is evaluated by the orthopedic surgeon. Id. f 47. As of March 15, 2017, plaintiff
had not seen the orthopedic surgeon. Id. U 48. Regarding his spinal injury, the staff at
Petersburg were negligent in (1) assuming it could be resolved with pain medication and (2)
failing to order the emergent MRI. Id.

33-34.

3

II. Motion to Dismiss
A. Standard of Review
Pursuant to Rule 12(b)(1) of the Federal Rules of Civil Procedure, a complaint or its
claims may be dismissed for lack of subject-matter jurisdiction. When a defendant challenges
the existence of subject-matter jurisdiction, courts may “regard the pleadings as mere evidence
on the issue [ ] and may consider evidence outside [those] pleadings without converting the
proceeding to one for summary judgment.” Richmond. Fredericksburg & Potomac R. Co. v.
United States. 945 F.2d 765, 768 (4th Cir.1991): see Virginia v. United States. 926 F.Supp. 537,
540 (E.D.Va.1995) (noting that, upon a defendant’s challenge to the existence of subject-matter
jurisdiction, the court is to “look beyond the jurisdictional allegations of the complaint and view
whatever evidence has been submitted on the issue to determine whether in fact subject[-]matter
jurisdiction exists”). As the party asserting jurisdiction, it is plaintiffs burden to prove that
federal jurisdiction over his claim is proper. McNutt v. General Motors Acceptance Corp.. 298
U.S. 178,189 (1936); Adams v. Bain. 697 F.2d 1213,1219 (4th Cir.1982).
B. Analysis
Generally, the United States and its agencies enjoy sovereign immunity from suit unless
Congress has explicitly abrogated such immunity. United States v. Sherwood. 312 U.S. 584, 586
(1941). The FTC Aprovides a limited waiver of that immunity insofar as it allows the United
States to be held liable “for injury or loss of property, or personal injury or death caused by the
negligent or wrongful act or omission of any employee of the Government... under
circumstances where the United States, if a private person, would be liable to the claimant in
accordance with the law of the place where the act or omission occurred.” 28 U.S.C. §
1346(b)(2): see Suter v. United States. 441 F.3d 306, 310 (4th Cir. 2006), cert, denied. 127 S.Ct.
272 (2006). “[A] waiver of the Government’s sovereign immunity will be strictly construed, in
4

terms of its scope, in favor of the sovereign.” Lane v. Pena. 518 U.S. 187,192 (1996) (citations
omitted).
Before a plaintiff can bring an FTCA claim to federal court, however, he must have
exhausted his claim by presenting it to the appropriate federal agency, and the agency must have
denied the claim in writing. 28 U.S.C. § 2675(a). The claim must be presented to the
appropriate agency within two years of the accrual of the claim, or it is “forever barred.” 28
U.S.C. § 2401(b). To properly “present” a claim to a federal agency, the plaintiff must provide a
written statement “sufficiently describing the injury to enable the agency to begin its own
investigation,” GAP Corp. v. United States. 818 F.2d 901,905 (D.C. Cir. 1987), as well as
provide “a claim for money damages in a sum certain for injury to or loss of property, personal
injury, or death,” 28 C.F.R. § 14.2(a); see also Ahmed v. United States. 30 F.3d 514, 516-17 (4th
Cir. 1994). Exhaustion of remedies is a jurisdictional requirement, and a court may not entertain
an FTCA suit based on an unexhausted claim. See McNeil v. United States. 508 U.S. 106,113
(1993); Henderson v. United States. 785 F.2d 121,123 (4th Cir. 1986).
Since 2015, plaintiff has only filed one administrative tort claim related to the provision
of medical care. Def.’s MSJ, Harris Decl. More specifically, on October 25,2016, plaintiff filed
a Standard Form 95 claiming “negligent malpractice and failure/refusal by [Petersburg] medical
staff to provide adequate, effective, competent, effective [sic] and timely medical care for spine
illness/injury/conditions rendering me disabled and in severe pain and distress.” Id. at Att. 4.
Thus, defendant asserts, plaintiffs claims based on (1) the alleged drug overdose, (2) any actions
taken by non-medical staff, and (3) any actions taken after October 2016, are unexhausted.
Plaintiff does not dispute that he did not properly exhaust the claims listed above,
however, he asserts that his lack of exhaustion is not fatal to his claims for two reasons. First,
plaintiff argues that he did not need to exhaust the unexhausted claims because the administrative
remedies were “unavailable” pursuant to the standard set out in Ross v. Blake. 136 S.Ct. 1850
5

(2016). Pl.’s Opp. at 4-6. In Ross, the Court held that, under the Prison Litigation Reform Act
(“PLRA”), “a prisoner need exhaust only ‘available’ administrative remedies,” and then laid out
three situations in which administrative remedies would be considered “unavailable.” Ross. 136
S. Ct. at 1856, 1859-60. The Court’s analysis was based on the statutory language of 42 U.S.C.
§ 1997(e)a, which “contains one significant qualifier: the remedies must indeed be ‘available’ to
the prisoner.” Id.
Plaintiff s Ross argument fails because Ross does not apply to FTCA cases, which must
be exhausted pursuant to 28 U.S.C. § 2675(a), not § 1997. See Mendoza v. United States. 661 F.
App’x 501, 502 (9th Cir. 2016) (“We reject [plaintiffs] contention that exhaustion under the
Prison Litigation Reform Act satisfies the requirement to exhaust under the FTCA.”); West v.
United States. 2018 WL 3384909, at *7 (S.D.W. Va. June 13,2018) (“[T]he exhaustion
requirements concerning FTCA and Bivens actions differ.”) (citations omitted), report and
recommendation adopted, 2018 WL 3381418 (S.D.W. Va. July 11, 2018); Elliott v. Wilson.
2017 WL 1185213, at *13 (D. Minn. Jan. 17,2017) (“The FTCA imposes an exhaustion
requirement separate from that found in § 1997e(a).”) (citations omitted), report and
recommendation adopted, 2017 WL 1180422 (D. Minn. Mar. 29,2017).
In addition, Ross should not be extended to apply to FTCA claims because § 2675(a)
does not contain the same, or even similar language, limiting exhaustion only to administrative
remedies that are available, as provided for in § 1997. See 28 U.S.C. § 2675(a) (“An action shall
not be instituted upon a claim against the United States for money damages for injury or loss of
property or personal injury or death caused by the negligent or wrongful act or omission of any
employee of the Government while acting within the scope of his office or employment, unless
the claimant shall have first presented the claim to the appropriate Federal agency and his claim
shall have been finally denied by the agency in writing and sent by certified or registered mail.”).
6

Thus, assuming without deciding that administrative remedies were “unavailable,” it would not
excuse plaintiffs lack of exhaustion.
Plaintiffs second argument is that his claims should be deemed exhausted because he
brought his problems to the attention of prison officials. Pl.’s Opp. at 6-7. At the same time,
plaintiff properly states that “[l]itigants must strictly comply with the procedural requirements of
the FTCA.”2 Id. at 6. Plaintiff never filed a claim requesting a sum certain regarding his claims
based on (1) the alleged drug overdose, (2) any actions taken by non-medical staff, and (3) any
actions taken after October 2016. Because plaintiff did not strictly comply with the FTCA’s
exhaustion requirements, these claims cannot be deemed exhausted.
Accordingly, plaintiffs claims based on (1) the alleged drug overdose, (2) any actions
taken by non-medical staff, and (3) any actions taken after October 2016 are unexhausted and
will be dismissed for lack ofjurisdiction.
III. Motion for Summary Judgment
A. Standard of Review
“The court shall grant summary judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a). “A dispute is genuine if a reasonable jury could return a verdict for the
nonmoving party,” and “[a] fact is material if it might affect the outcome of the suit under the
governing law.” Variety Stores v. Wal-Mart Stores. Inc.. 888 F.3d 651, 659 (4th Cir. 2018).
Once the moving party has met its burden to show that it is entitled to judgment as a matter of
law, the nonmoving party “must show that there is a genuine dispute of material fact for trial...
by offering sufficient proof in the form of admissible evidence.” Id (quoting Guessous v.

2 It is also noted that plaintiffs references to the exhaustion requirements under the
PLRA are inapposite as the PLRA exhaustion requirements differ from the FTCA exhaustion
requirements.
7

F s

..ae-f '
•t

?

iirf- *

!
1

£

I
1
k

9fpr 35! c Vl->a,x Hi ? (ifp ay 300a)' „ll»|2 GxccbqoopbrniCK «y> iu ,uns ippmcciV „
t>.\> fc- gnbb-

(E'D‘ A» *j«P j* YXY) (cittfiow niejwcqy

coasatca jaroiA|sq&c snq otbeueocs-,. /jr Qpqv § JCHCO ! ‘
peonac ti*-.: aiJG-.-oq sc; or_ucS|?Scncs cjgsija prc
1 q*r ,/aiSc ofjp.’.
acq«Jxpsrc s'aacua *» qicocX offmpfjr£k mm*c>;ba.f fGupujcif/*;-3 rai;s«c'»2s:.A
nwX p« e:fr.r?««j oufX Mpei£ „b{gwq»£ m 8oo« |aup' aqe8«» a aruqicsj ij?s]!»,«;'k.c
buiAiqcs ecjX r {mx'isq cKftbqoo to .ps ocu^xcnuon uidmusiBaq! rue ux'ciu.iccuf
isdnrx&ajco? « ?* ",01x55 jot qpcnswr pirwifr -ssgaujEsraf > • tpsz xpe AS-T/$y
/(S' coqe 'i ?•{* ■ -30' I gituriicw^' ipo j3iji7i« to cciOJbjX micji tp:-* csi*:yctooix
oprsni su c ouut cgurjostjou
buoi to zct.aiu8 btocexa nbou qsieuqsyr
CWF H'OJ'Jgn5^55^"
gjsj*t>sijA 9js«8iug usqiajf uivfbuiericc
V? sr jpic^poiq
ips /ji£»PR
;*jsjbujc|ice v« Y.AVW'V/.X ti*'

i

i

k
i

i1

AMViy iu kXCV otiioa nJA<’>|A;o& {cqct$'/2 obsisxsq pcHjtp csk biOA?q~t-? iu /..<jbxn*)
bjrfUff^s -ICY cj»:iW5 8«g

gK55‘

n'30 34 OtY CP' ) <Y;) \8bbfXro8
J

Yin („AHHV,,)‘ Ar C°06 §2 H‘0f'2<fJ i' W 569” btoAjqea fjic u'mKMOijf nbou Mpicji ro nusjXsc
ipe nrnt&q gjo/sz ms/. ps pspje ss s qsfeaqwr yccoiqiuBtyX* ipe /ypribvn /icqfcRj i^qbisjcfvce
r.

sumonaq *acd{3 tsfrot bjscs m Ap-feuisr’

I

{«« 8oAeu« tps uisaura. mm exicox io Mptcp

qjK ocx ox ocTTCKoy occ.miGq4., jg fl'g'C § 12<^(p)(i)‘ H6Ije>

b|srim»-;yt,3 fi||c8sf|0£j2

■k

i

anq ipe exfGis? o\ pa frapriiji p qc£er!ynKq wm scooiqswcc -- qp ros js*- ox_ qi« bf TCf; /^pctc

i
s

ijjguiiGi soq ?o tpc Hsoffi cxjfcji sz » bti.*8f« mqj.Mqosj fljqci |i}tG atfinoxiy8«fx-V„ 38 n p C' §
pi? cgics ot eufbjoYasnif „ 3g nY’C ? U4ViP)(i)' .Lps §OA€«nix,-iif n oi<\}- ,.j3Sfpjc ;ii ?uc mae
pq cl ommma oj mu aifb|0>.oc ci^xpc <-,oa«ioiicu( ag|;tjc scp-jls
; •.rjuinmxX.xo

jjis acafe oq

»
f

fiqjo^ -;c(Jow zv^pv's mon^sO- icjh^ xr>x niinucs .,u<n2ci| p>. :p« oc^pSccf oi

Y2 bir-MonajA sfax* c" qw hlCY btowqvw »? s«:;;{cq

o{_ip« ftuixsq gj»ic2, ■
aoagicMu

I

3* 7 us jaws

I

?sSiiY.]^"15^Pb!’

ioa n'?r

ta nm'r

jpc ooxsxjxoAJX/S bsttl " uq qiSM S]j wasoyapp m|cr.a*£»:« you) ;j>;' ..u

pi {3-.0-.

bruX’

amaajstXInqSsKDf* a qi^aicj corn spoosq cooaiqcs. jpc «Aiq©ure so rp« p@p£ won

jsaOupjs to

PiSAiTSEpob'-lS^Tn!' H38 Y3q S08‘ 3!0 v^tp CF' 30<0/ P SASjnajrut n tiiO»?oo \pi

>
¥'
-v

J -«'

5-.‘

• rii ,*T

i

'!

Baxter v. United States. 2016 WL 3618363, at *4 (E.D. Va. July 6,2016) (quoting Beverly
Enters.-Va.. Inc, v. Nichols. 441 S.E.2d 1, 3 (Va.1994)).
Plaintiff does not dispute that he has not yet obtained an expert certification. Rather, he
argues that he was not required to obtain one because the evidence clearly establishes that
defendant’s negligence was the proximate cause of him not receiving an MRI, as well as his pain
and “permanent damage.” Pi’s. Opp. at 11. Plaintiff also states that defendants knew or should
have known that a delay in the MRI might cause additional damage and pain. Id. at 11-12.
Plaintiff began to complain of pain in June 2015, and was evaluated by medical staff on
July 20 and 23,2015, at which point he was prescribed Ibuprofen. In addition, plaintiff was
evaluated on July 27,2015, and had a lumbar and pelvic x-ray that same day. The next day,
plaintiff was prescribed pain medication. On August 5,2015, an emergent lumbar MRI was
requested, and even though it was not scheduled by the Petersburg medical staff before plaintiff
went to the hospital on August 9,2015, one was performed at the hospital on August 10,2015.
“Where... a plaintiff calls into question a quintessential professional medical judgment,
the matter can be resolved only by reference to expert opinion testimony.” Parker. 475
F.Supp.2d at 597 (internal quotation marks and citation omitted). A physician’s decision to
prescribe or recommend certain courses of treatment for a patient’s pain is a question of
professional medical judgment, and an expert certification is therefore required to challenge it.
See Id. at 597 (“[I]t is difficult to imagine that a factfinder, equipped solely with an average
person’s common knowledge and experience, may appropriately judge, inter alia, (i) what
actions the prison medical staff should have taken when plaintiff complained of headaches... and
(iii) what the proper course of treatment was for plaintiffs condition.”). In addition, whether a
delay of five days in performing an emergent MRI breached the standard of care is not within the
common knowledge of the jury. See Bond v. United States. 2008 WL 4774004, at *3 (E.D. Va.
Oct. 27, 2008) (holding VMMA certification required for plaintiffs claim that two-month delay
9

in examination of finger caused by defendants constituted improper treatment). Finally, the
existence of plaintiffs other underlying medical concerns only renders the decision on when or
what type of treatment to provide further outside the realm of a juror’s common knowledge. For
these reasons, plaintiff cannot escape the expert certification requirement.
Plaintiff has informed the Court that he is in the process of seeking an expert
certification. However, submitting the required certification at this point in this matter would not
comply with the requirements of the VMMA. “If the plaintiff did not obtain a necessary
certifying expert opinion at the time the plaintiff requested service of process on a defendant as
required under this section, the court shall impose sanctions ... and may dismiss the case with
prejudice.” Va. Code § 8.01-20.1. Because plaintiff had not obtained an expert certification at
the time this matter was served on defendant, and defendant is only “liable in the same manner
and to the same extent as a private individual under like circumstances,” this matter will be
dismissed.
C. Procedural Arguments
Plaintiff asserts several procedural reasons why he believes summary judgment should
not be granted in this matter. First, plaintiff claims that, “in this district summary judgment
cannot be granted prior to discovery,” and that, in general, discovery is essential prior to granting
of summary judgment. PL’s Opp. at 9-10. Plaintiff is incorrect that summary judgment cannot
be granted in this district without discovery. In addition, Federal Rule of Civil Procedure 56(d)
allows for discovery “[i]f a nonmovant shows by affidavit or declaration that, for specified
reasons, it cannot present facts essential to justify its opposition.” Fed. R. Civ. P. 56(d). Here,
where the only issue presented on summary judgment is whether plaintiff has obtained an expert
certification as required by the VMMA, he has not established that he is unable to present facts
essential to justifying his opposition. Therefore, discovery is not necessary prior to ruling on
defendant’s Motion for Summary Judgment because plaintiff has not “specified legitimate needs
10

for further discovery.” Strae v. Bd. of Trustees. Craven Cmtv. Coll.. 55 F.3d 943, 953 (4th Cir.
1995) (alteration and citation omitted).
Second, plaintiff contends that Local Rule 56(a) states that no motion for summary
judgment “shall be considered until the completion of the briefing schedule,” and because no
briefing schedule has been conducted in this matter, summary judgment cannot be granted. Pl.’s
Opp. at 9. Plaintiff is incorrect, as Local Rule 56(a) contains no such restriction.
Third, plaintiff asserts that the court could appoint an expert pursuant to Federal Rule of
Evidence 706. Because, for the reasons stated above, any expert certification obtained at this
time would not comply with the requirements of the VMMA, appointing an expert at this time
would not prevent granting of summary judgment.
Fourth, plaintiff asserts that defendant’s motion is actually a motion to dismiss pursuant
to Rule 12(b)(1) of the Federal Rules of Civil Procedure, and as such, it fails because Virginia
Code § 8.01-20.1 is not jurisdictional. Plaintiff is incorrect that defendant’s motion is a Rule
12(b)(1) motion, thus his jurisdictional argument need not be addressed.
Finally, plaintiff claims that defendant’s motion is actually a motion to dismiss pursuant
to Rule 12(b)(6) of the Federal Rules of Civil Procedure, and therefore, summary judgment
cannot be granted. In support of its motion, defendant relies on plaintiffs certification that he
did not obtain a written opinion from an expert medical witness, but rather that his case falls
under the common knowledge exception in Virginia Code § 8.01 -20.1. Def.’s MSJ at Ex. 3.
Because this document is not part of plaintiffs complaint, defendant properly filed a motion for
summary judgment.
IV. Constitutionality of Virginia Code § 8.01-20.1
Plaintiff asserts that Virginia Code § 8.01-20.1 is “a complete block to access to the
courts.” Amend. Compl. 188. In other words, plaintiff appears to argue that Virginia Code §
8.01-20.1 is unconstitutional because it denied him his right to access the courts. Inmates have a
11

right to meaningful access to the courts. Bounds v. Smith. 430 U.S. 817, 822 (1977)); Lewis v.
Casey. 518 U.S. 343 (1996). To state a claim for denial of access to the courts, plaintiff must
establish that he suffered an “actual injury or specific harm.” Hause v. Vaught. 993 F.2d 1079,
1084-85 (4th Cir. 1993). Actual injury requires the inmate “to demonstrate that his nonfrivolous,
post-conviction or civil rights legal claim has been frustrated or impeded.” Jackson v. Wiley.
352 F. Supp. 2d 666, 679-80 (E.D. Va. 2004) (citing Lewis v. Casev. 518 U.S. 343 (1996))
In other words, Bounds does not guarantee inmates the wherewithal to transform
themselves into litigating engines capable of filing everything from shareholder
derivative actions to slip-and-fall claims. The tools it requires to be provided are
those that the inmates need in order to attack their sentences, directly or
collaterally, and in order to challenge the conditions of their confinement.
Impairment of any other litigating capacity is simply one of the incidental (and
perfectly constitutional) consequences of conviction and incarceration.
Lewis. 518 U.S. at 355. Because plaintiff is neither attacking his sentence nor asserting a claim
that his civil rights were violated, any alleged impairment of his ability to pursue his FTCA
claim is not a violation of his constitutional right to access the courts. See also Walker v. Zenk.
323 F. App’x 144,147 (3d Cir. 2009) (“[A]s the District Court ... noted, because [plaintiff] is a
prisoner, the injury requirement is not satisfied by just any type of frustrated legal claim. A
prisoner must allege that official acts thwarted his non-frivolous challenge to his conviction or
prison conditions. [Plaintiffs] tort claim falls into neither category of legal challenges.
Accordingly, he did not state a claim for denial of access to the courts.”) (internal quotation
marks and citations omitted).
V. Conclusion
For the reasons stated above, defendant United States of America has established that
certain claims asserted by plaintiff are unexhausted, and that defendant is entitled to summary
judgment as to the remaining claim. Therefore, defendant’s motion will be granted. In addition,
plaintiff has not established that Virginia Code § 8.01-20.1 violates his First Amendment right to
12

access the courts. Finally, any pending motions will be denied, as moot. An appropriate Order
shall issue.

Entered this <37 ^

I

day of trf

2019.

Alexandria, Virginia
Anthony J. TrengftJIJj
United States DisMcfittidge

!

13

APPENDIX B

USCA4 Appeal: 19-6741

Doc: 17

Filed: 12/23/2019

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6741

RICHARD BALTER,
Plaintiff - Appellant,
v.

UNITED STATES OF AMERICA,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Anthony John Trenga, District Judge. (l:17-cv-01188-AJT-JFA)

Submitted: December 19, 2019

Decided: December 23, 2019

Before NIEMEYER, AGEE, and QUATTLEBAUM, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Richard Balter, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

I

i
USCA4 Appeal: 19-6741

Doc: 17

Filed: 12/23/2019

Pg:2of2

l
r
*;
t"'

>

PER CURIAM:
Richard Balter appeals the district court’s order denying relief on his complaint filed

I

pursuant to the Federal Tort Claims Act, 28 U.S.C. §§ 2671-2680 (2012). We have

I
I

reviewed the record and find no reversible error. Accordingly, we affirm for the reasons
stated by the district court. Balter v. United States, No. l:l7-cv-01188-AJT-JFA(E.D. Va.
Mar. 27, 2019). We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED.

f

%

fe'

%f
;;
A

I
h

'i

I

i

?•

3

*
=

!
2

v-

i

USCA4 Appeal: 19-6741

Doc: 23

Filed: 03/23/2020

Pg: 1 of 1

FILED: March 23, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6741
(1:17-cv-0118 8-AJT- JF A)

RICHARD BALTER
Plaintiff - Appellant
v.

UNITED STATES OF AMERICA
Defendant - Appellee

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Niemeyer, Judge Agee, and Judge
Quattlebaum.
For the Court
/s/ Patricia S. Connor. Clerk

APPENDIX D

Balter v. United States
Petition for
Writ of Certiorari
Page 1 of 13

(A) Federal Tort Claims Act

28 U.S. Code § 1346.

United States as defendant

The district courts shall have original jurisdiction, concurrent with
(a)
the United States Court of Federal Claims, of:
Any civil action against the United States for the recovery of any
(1)
internal-revenue tax alleged to have been erroneously or illegally
assessed or collected, or any penalty claimed to have been collected
without authority or any sum alleged to have been excessive or in any
manner wrongfully collected under the internal-revenue laws;
(2)
Any other civil action or claim against the United States, not
exceeding $10,000 in amount, founded either upon the Constitution, or
any Act of Congress, or any regulation of an executive department, or
upon any express or implied contract with the United States, or for
liquidated or unliquidated damages in cases not sounding in tort, except
that the district courts shall not have jurisdiction of any civil action or
claim against the United States founded upon any express or implied
contract with the United States or for liquidated or unliquidated
damages in cases not sounding in tort which are subject to sections
7104(b)(1) and 7107(a)(1) of title 41. For the purpose of this paragraph,
an express or implied contract with the Army and Air Force Exchange
Service,
Navy
Exchanges,
Marine
Corps
Exchanges, Coast
Guard Exchanges, or Exchange Councils of the National Aeronautics
and Space Administration shall be considered an express or implied
contract with the United States.
(b)
Subject to the provisions of chapter 171 of this title, the district
(1)
courts, together with the United States District Court for the District of
the Canal Zone and the District Court of the Virgin Islands, shall have
exclusive jurisdiction of civil actions on claims against the United
States, for money damages, accruing on and after January 1, 1945, for
injury or loss of property, or personal injury or death caused by the
negligent or wrongful act or omission of any employee of the
Government while acting within the scope of his office or employment,
under circumstances where the United States, if a private person, would
be liable to the claimant in accordance with the law of the place where
the act or omission occurred.

Balter v. United States
Petition for
Writ of Certiorari
Page 2 of 13

No person convicted of a felony who is incarcerated while
awaiting sentencing or while serving a sentence may bring a civil action
against the United States or an agency, officer, or employee of the
Government, for mental or emotional injury suffered while in custody
without a prior showing of physical injury or the commission of a sexual
act (as defined in section 2246 of title 18).
(2)

The jurisdiction conferred by this section includes jurisdiction of any set­
(c)
off, counterclaim, or other claim or demand whatever on the part of the United
States against any plaintiff commencing an action under this section.
The district courts shall not have jurisdiction under this section of any
(d)
civil action or claim for a pension.
The district courts shall have original jurisdiction of any civil action
(e)
against the United States provided in section 6226, 6228(a), 7426, or 7428 (in the
case of the United States district court for the District of Columbia) or section 7429
of the Internal Revenue Code of 1986.
The district courts shall have exclusive original jurisdiction of civil
(f)
actions under section 2409ato quiet title to an estate or interest in real property
in which an interest is claimed by the United States.
Subject to the provisions of chapter 179, the district courts of the United
(g)
States shall have exclusive jurisdiction over any civil action commenced
under section 453(2) of title 3, by a covered employee under chapter 5 of such title.
(June 25, 1948, ch. 646, 62 Stat. 933; Apr. 25, 1949, ch. 92, § 2(a), 63 Stat. 62; May 24, 1949,
ch. 139, § 80(a), (b), 63 Stat. 101; Oct. 31, 1951, ch. 655, § 50(b), 65 Stat. 727; July 30, 1954,
ch. 648, § 1, 68 Stat. 589; Pub. L. 85-508, § 12(e), July 7, 1958, 72 Stat. 348; Pub. L. 88519, Aug. 30, 1964,78 Stat. 699; Pub. L. 89-719, title II, § 202(a), Nov. 2, 1966,80 Stat.
1148; Pub. L. 91-350, § 1(a), July 23, 1970, 84 Stat. 449; Pub. L. 92-562, § 1, Oct. 25, 1972, 86
Stat. 1176; Pub. L. 94-455, title XII, § 1204(c)(1), title XIII, § 1306(b)(7), Oct. 4, 1976, 90 Stat.
1697, 1719; Pub. L. 95-563, § 14(a), Nov. 1, 1978, 92 Stat. 2389; Pub. L. 97-164, title I,
§ 129, Apr. 2, 1982, 96 Stat. 39; Pub. L. 97-248, title IV, § 402(c)(17), Sept. 3, 1982, 96 Stat.
669; Pub. L. 99-514, § 2, Oct. 22, 1986, 100 Stat. 2095; Pub. L. 102-572, title IX,
§ 902(b)(1), Oct. 29, 1992,106 Stat. 4516; Pub. L. 104-134, title I, § 101 [(a)] [title VIII,
§806], Apr. 26, 1996,110 Stat. 1321, 1321-75; renumbered title I, Pub. L. 104-140,
§ 1(a), May 2, 1996,110 Stat. 1327; Pub. L. 104-331, § 3(b)(1), Oct. 26, 1996,110 Stat.
4069; Pub. L. 111-350, § 5(g)(6), Jan. 4, 2011,124 Stat. 3848; Pub. L. 113-4, title XI,
§ 1101(b), Mar. 7, 2013, 127 Stat. 134.)

Balter v. United States
Petition for
Writ of Certiorari
Page 3 of 13

(B)

Federal Rule of Civil Procedure 8

Rule 8.

General Rules of Pleading

(a) Claim for Relief. A pleading that states a claim for relief must contain:
a short and plain statement of the grounds for the court's
(1)
jurisdiction, unless the court already has jurisdiction and the claim
needs no new jurisdictional support;
(2)
a short and plain statement of the claim showing that the pleader
is entitled to relief; and
(3)
a demand for the relief sought, which may include relief in the
alternative or different types of relief.
(b) Defenses; Admissions and Denials.
(1)

In General. In responding to a pleading, a party must:
(A) state in short and plain terms its defenses to each claim
asserted against it; and
(B) admit or deny the allegations asserted against it by an
opposing party.

(2)
Denials—Responding to the Substance. A denial must fairly
respond to the substance of the allegation.
(3)
General and Specific Denials. A party that intends in good faith
to deny all the allegations of a pleading—including the jurisdictional
grounds—may do so by a general denial. A party that does not intend to
deny all the allegations must either specifically deny designated
allegations or generally deny all except those specifically admitted.
(4)
Denying Part of an Allegation. A party that intends in good faith
to deny only part of an allegation must admit the part that is true and
deny the rest.
(5)
Lacking Knowledge or Information. A party that lacks knowledge
or information sufficient to form a belief about the truth of an allegation
must so state, and the statement has the effect of a denial.
(6)
Effect of Failing to Deny. An allegation—other than one relating
to the amount of damages—is admitted if a responsive pleading is
required and the allegation is not denied. If a responsive pleading is not
required, an allegation is considered denied or avoided.

Balter v. United States
Petition for
Writ of Certiorari
Page 4 of 13

(c)

Affirmative Defenses.
In General. In responding to a pleading, a party
(1)
must affirmatively state any avoidance or affirmative
defense, including:
• accord and satisfaction;
• arbitration and award;
• assumption of risk;
• contributory negligence;
• duress;
• estoppel;
• failure of consideration;
• fraud;
• illegality;
• injury by fellow servant;
• laches;
• license;
• payment;
• release;
• res judicata;
• statute of frauds;
• statute of limitations; and
• waiver.

Mistaken Designation. If a party mistakenly designates a defense
as a counterclaim, or a counterclaim as a defense, the court must, if
justice requires, treat the pleading as though it were correctly
designated, and may impose terms for doing so.
(2)

(d) Pleading to Be Concise and Direct; Alternative Statements; Inconsistency.
In General. Each allegation must be simple, concise, and direct.
(1)
No technical form is required.

Balter v. United States
Petition for
Writ of Certiorari
Page 5 of 13

Alternative Statements of a Claim or Defense. A party may set out
(2)
2 or more statements of a claim or defense alternatively or
hypothetically, either in a single count or defense or in separate ones. If
a party makes alternative statements, the pleading is sufficient if any
one of them is sufficient.
Inconsistent Claims or Defenses. A party may state as many
(3)
separate claims or defenses as it has, regardless of consistency.
(e) Construing Pleadings. Pleadings must be construed so as to do justice.
Notes
(As amended Feb. 28, 1966, eff. July 1, 1966; Mar. 2, 1987, eff. Aug. 1, 1987; Apr. 30, 2007,
eff. Dec. 1, 2007; Apr. 28, 2010, eff. Dec. 1, 2010.)

(C)

Federal Rule of Civil Procedure 9

Rule 9.

Pleading Special Matters

(a)

Capacity or Authority to Sue; Legal Existence.
In General. Except when required to show that the court has
(1)
jurisdiction, a pleading need not allege:
(A)

a party's capacity to sue or be sued;

a party's authority to sue or be sued in a representative
(B)
capacity; or
the legal existence of an organized association of persons
(C)
that is made a party.
Raising Those Issues. To raise any of those issues, a party must
(2)
do so by a specific denial, which must state any supporting facts that are
peculiarly within the party's knowledge.
Fraud or Mistake; Conditions of Mind. In alleging fraud or mistake, a
(b)
party must state with particularity the circumstances constituting fraud or
mistake. Malice, intent, knowledge, and other conditions of a person's mind may
be alleged generally.
Conditions Precedent. In pleading conditions precedent, it suffices to
(c)
allege generally that all conditions precedent have occurred or been performed.

Balter v. United States
Petition for
Writ of Certiorari
Page 6 of 13

But when denying that a condition precedent has occurred or been performed, a
party must do so with particularity.
Official Document or Act. In pleading an official document or official act,
(d)
it suffices to allege that the document was legally issued or the act legally done.
Judgment. In pleading a judgment or decision of a domestic or foreign
(e)
court, a judicial or quasi-judicial tribunal, or a board or officer, it suffices to plead
the judgment or decision without showing jurisdiction to render it.
(f)
Time and Place. An allegation of time or place is material when testing
the sufficiency of a pleading.
Special Damages. If an item of special damage is claimed, it must be
(g)
specifically stated.
(h)

Admiralty or Maritime Claim.
How Designated. If a claim for relief is within the admiralty or
(1)
maritime jurisdiction and also within the court's subject-matter
jurisdiction on some other ground, the pleading may designate the claim
as an admiralty or maritime claim for purposes of Rules 14(c), 38(e),
and 82 and the Supplemental Rules for Admiralty or Maritime Claims
and Asset Forfeiture Actions. A claim cognizable only in the admiralty
or maritime jurisdiction is an admiralty or maritime claim for those
purposes, whether or not so designated.
Designation for Appeal. A case that includes an admiralty or
(2)
maritime claim within this subdivision (h) is an admiralty case
within 28 U.S.C. § 1292(a)(3).
Notes

(As amended Feb. 28, 1966, eff. July 1, 1966; Dec. 4, 1967, eff. July 1, 1968; Mar. 30, 1970,
eff. July 1, 1970; Mar. 2, 1987, eff. Aug. 1, 1987; Apr. 11, 1997, eff. Dec. 1, 1997; Apr. 12,
2006, eff. Dec. 1, 2006; Apr. 30, 2007, eff. Dec. 1, 2007.)

Balter v. United States
Petition for
Writ of Certiorari
Page 7 of 13

(D)

Federal Rule of Civil Procedure 11

Rule 11. Signing Pleadings, Motions, and Other Papers; Representations to the
Court; Sanctions
Signature. Every pleading, written motion, and other paper must be
(a)
signed by at least one attorney of record in the attorney's name—or by a party
personally if the party is unrepresented. The paper must state the signer's
address, e-mail address, and telephone number. Unless a rule or statute
specifically states otherwise, a pleading need not be verified or accompanied by
an affidavit. The court must strike an unsigned paper unless the omission is
promptly corrected after being called to the attorney's or party's attention.
Representations to the Court. By presenting to the court a pleading,
(b)
written motion, or other paper—whether by signing, filing, submitting, or later
advocating it—an attorney or unrepresented party certifies that to the best of
the person's knowledge, information, and belief, formed after an inquiry
reasonable under the circumstances:

(c)

(1)

it is not being presented for any improper purpose, such
as to harass, cause unnecessary delay, or needlessly
increase the cost of litigation;

(2)

the claims, defenses, and other legal contentions are
warranted by existing law or by a nonfrivolous argument
for extending, modifying, or reversing existing law or for
establishing new law;

(3)

the factual contentions have evidentiary support or, if
specifically so identified, will likely have evidentiary
support after a reasonable opportunity for further
investigation or discovery; and

(4)

the denials of factual contentions are warranted on the
evidence or, if specifically so identified, are reasonably
based on belief or a lack of information.

Sanctions.
(1)

In General. If, after notice and a reasonable opportunity
to respond, the court determines that Rule 11(b) has been
violated, the court may impose an appropriate sanction on
any attorney, law firm, or party that violated the rule or
is responsible for the violation. Absent exceptional
circumstances, a law firm must be held jointly responsible

Balter v. United States
Petition for
Writ of Certiorari
Page 8 of 13

for a violation committed by its partner, associate, or
employee.
(2)

Motion for Sanctions. A motion for sanctions must be
made separately from any other motion and must describe
the specific conduct that allegedly violates Rule 11(b). The
motion must be served under Rule 5, but it must not be
filed or be presented to the court if the challenged paper,
claim, defense, contention, or denial is withdrawn or
appropriately corrected within 21 days after service or
within another time the court sets. If warranted, the court
may award to the prevailing party the reasonable
expenses, including attorney's fees, incurred for the
motion.

(3)

On the Court's Initiative. On its own, the court may order
an attorney, law firm, or party to show cause why conduct
specifically described in the order has not violated Rule
11(b).

(4)

Nature of a Sanction. A sanction imposed under this rule
must be limited to what suffices to deter repetition of the
conduct or comparable conduct by others similarly
situated. The sanction may include nonmonetary
directives; an order to pay a penalty into court; or, if
imposed on motion and warranted for effective deterrence,
an order directing payment to the movant of part or all of
the reasonable attorney's fees and other expenses directly
resulting from the violation.

(5)

Limitations on Monetary Sanctions. The court must not
impose a monetary sanction:
(A)

against a represented party for violating Rule
11(b)(2); or

(B)

on its own, unless it issued the show-cause
order under Rule 11(c)(3) before voluntary
dismissal or settlement of the claims made by
or against the party that is, or whose attorneys
are, to be sanctioned.

Balter v. United States
Petition for
Writ of Certiorari
Page 9 of 13

(6)

Requirements for an Order. An order imposing a sanction
must describe the sanctioned conduct and explain the
basis for the sanction.

(d)
Inapplicability to Discovery. This rule does not apply to disclosures and
discovery requests, responses, objections, and motions under Rules 26 through 37.
Notes
(As amended Apr. 28, 1983, eff. Aug. 1, 1983; Mar. 2, 1987, eff. Aug. 1, 1987; Apr. 22, 1993, eff.
Dec. 1, 1993; Apr. 30, 2007, eff. Dec. 1, 2007.)

(E)

Federal Rule of Civil Procedure 12
Rule 12. Defenses and Objections: When and How Presented; Motion for
Judgment on the Pleadings; Consolidating Motions; Waiving Defenses; Pretrial
Hearing
(a)

Time to Serve a Responsive Pleading.
In General. Unless another time is specified by this rule or
(1)
a federal statute, the time for serving a responsive pleading is as
follows:
(A)

A defendant must serve an answer:
(i) within 21 days after being served with the
summons and complaint; or
(ii) if it has timely waived service under Rule
4(d), within 60 days after the request for a
waiver was sent, or within 90 days after it was
sent to the defendant outside any judicial
district of the United States.

(B)

A party must serve an answer to a
counterclaim or crossclaim within 21 days
after being served with the pleading that
states the counterclaim or crossclaim.

(C)

A party must serve a reply to an answer
within 21 days after being served with an
order to reply, unless the order specifies a
different time.

United States and Its Agencies, Officers, or Employees Sued
(2)
in an Official Capacity. The United States, a United States agency,

Balter v. United States
Petition for
Writ of Certiorari
Page 10 of 13

or a United States officer or employee sued only in an official capacity
must serve an answer to a complaint, counterclaim, or crossclaim
within 60 days after service on the United States attorney.
United States Officers or Employees Sued in an Individual
(3)
Capacity. A United States officer or employee sued in an individual
capacity for an act or omission occurring in connection with duties
performed on the United States’ behalf must serve an answer to a
complaint, counterclaim, or crossclaim within 60 days after service
on the officer or employee or service on the United States attorney,
whichever is later.
Effect of a Motion. Unless the court sets a different time,
(4)
serving a motion under this rule alters these periods as follows:
(A) if the court denies the motion or postpones its
disposition until trial, the responsive pleading
must be served within 14 days after notice of the
court's action; or
(B) if the court grants a motion for a more definite
statement, the responsive pleading must be
served within 14 days after the more definite
statement is served.
How to Present Defenses. Every defense to a claim for relief in
(b)
any pleading must be asserted in the responsive pleading if one is required.
But a party may assert the following defenses by motion:
(1)

lack of subject-matter jurisdiction;

(2)

lack of personal jurisdiction;

(3)

improper venue;

(4)

insufficient process;

(5)

insufficient service of process;

(6)

failure to state a claim upon which relief can be
granted; and

(7)

failure to join a party under Rule 19.

A motion asserting any of these defenses must be made before pleading if a
responsive pleading is allowed. If a pleading sets out a claim for relief that
does not require a responsive pleading, an opposing party may assert at
trial any defense to that claim. No defense or objection is waived by joining

Balter v. United States
Petition for
Writ of Certiorari
Page 11 of 13

it with one or more other defenses or objections in a responsive pleading or
in a motion.
Motion for Judgment on the Pleadings. After the pleadings are closed—
(c)
but early enough not to delay trial—a party may move for judgment on the
pleadings.
Result of Presenting Matters Outside the Pleadings. If, on a motion
(d)
under Rule 12(b)(6) or 12(c), matters outside the pleadings are presented to and
not excluded by the court, the motion must be treated as one for summary
judgment under Rule 56. All parties must be given a reasonable opportunity to
present all the material that is pertinent to the motion.
Motion for a More Definite Statement. A party may move for a more
(e)
definite statement of a pleading to which a responsive pleading is allowed but
which is so vague or ambiguous that the party cannot reasonably prepare a
response. The motion must be made before filing a responsive pleading and must
point out the defects complained of and the details desired. If the court orders a
more definite statement and the order is not obeyed within 14 days after notice of
the order or within the time the court sets, the court may strike the pleading or
issue any other appropriate order.
Motion to Strike. The court may strike from a pleading an insufficient
(f)
defense or any redundant, immaterial, impertinent, or scandalous matter. The
court may act:

(g)

(h)

(1)

on its own; or

(2)

on motion made by a party either before responding
to the pleading or, if a response is not allowed,
within 21 days after being served with the pleading.

Joining Motions.
(1)

Right to Join. A motion under this rule may be
joined with any other motion allowed by this rule.

(2)

Limitation on Further Motions. Except as provided
in Rule 12(h)(2) or (3), a party that makes a motion
under this rule must not make another motion under
this rule raising a defense or objection that was
available to the party but omitted from its earlier
motion.

Waiving and Preserving Certain Defenses.
(1)

When Some Are Waived. A party waives any
defense listed in Rule 12(b)(2)—(5) by:

Balter v. United States
Petition for
Writ of Certiorari
Page 12 of 13

(A) omitting it from a motion in the
circumstances described in Rule 12(g)(2); or
(B)

failing to either:
(i) make it by motion under this rule; or

(ii) include it in a responsive pleading or in
an amendment allowed by Rule 15(a)(1) as a
matter of course.
(2)

When to Raise Others. Failure to state a claim upon
which relief can be granted, to join a person
required by Rule 19(b), or to state a legal defense to
a claim may be raised:
(A) in any pleading allowed or ordered
under Rule 7(a);
(B) by a motion under Rule 12(c); or
(C)

(3)

at trial.

Lack of Subject-Matter Jurisdiction. If the court
determines at any time that it lacks subject-matter
jurisdiction, the court must dismiss the action.

Hearing Before Trial. If a party so moves, any defense bsted in Rule
(i)
12(b)(1)—(7)—whether made in a pleading or by motion—and a motion under Rule
12(c) must be heard and decided before trial unless the court orders a deferral
until trial.
Notes

(As amended Dec. 27, 1946, eff. Mar. 19, 1948; Jan. 21, 1963, eff. July 1, 1963; Feb. 28, 1966,
eff. July 1, 1966; Mar. 2, 1987, eff. Aug. 1, 1987; Apr. 22, 1993, eff. Dec. 1, 1993; Apr. 17, 2000,
eff. Dec. 1, 2000; Apr. 30, 2007, eff. Dec. 1, 2007; Mar. 26, 2009, eff. Dec. 1, 2009.)

(F)

Virginia Code § 8.01-20.1.
Certification of expert witness opinion at time of service of process.
Every motion for judgment, counter claim, or third party claim in a medical
malpractice action, at the time the plaintiff requests service of process upon a
defendant, or requests a defendant to accept service of process, shall be deemed a
certification that the plaintiff has obtained from an expert witness whom the
plaintiff reasonably believes would qualify as an expert witness pursuant to
subsection A of § 8.01-581.20 a written opinion signed by the expert witness that,

Balter v. United States
Petition for
Writ of Certiorari
Page 13 of 13

based upon a reasonable understanding of the facts, the defendant for whom
service of process has been requested deviated from the applicable standard of
care and the deviation was a proximate cause of the injuries claimed. This
certification is not necessary if the plaintiff, in good faith, alleges a medical
malpractice action that asserts a theory of liability where expert testimony is
unnecessary because the alleged act of negligence clearly lies within the range of
the jury's common knowledge and experience.
The certifying expert shall not be required to be an expert witness expected to
testify at trial nor shall any defendant be entitled to discover the identity or
qualifications of the certifying expert or the nature of the certifying expert's
opinions. Should the certifying expert be identified as an expert expected to testify
at trial, the opinions and bases therefor shall be discoverable pursuant to Rule 4:1
of the Rules of Supreme Court of Virginia with the exception of the expert's status
as a certifying expert.
Upon written request of any defendant, the plaintiff shall, within 10 business days
after receipt of such request, provide the defendant with a certification form that
affirms that the plaintiff had obtained the necessary certifying expert opinion at
the time service was requested or affirms that the plaintiff did not need to obtain
a certifying expert witness opinion. The court, upon good cause shown, may
conduct an in camera review of the certifying expert opinion obtained by the
plaintiff as the court may deem appropriate. If the plaintiff did not obtain a
necessary certifying expert opinion at the time the plaintiff requested service of
process on a defendant as required under this section, the court shall impose
sanctions according to the provisions of § 8.01-271.1 and may dismiss the case
with prejudice.
2005, cc. 649, 692; 2007, c. 489; 2013, cc. 65, 610.

